Supreme Court, U.S.
FILED

WAIVER

AUG 0 1 2019
OFFICE OF THE CLERK

SUPREME COURT OF THE UNITED STATES
Supreme Court Case No.

19-86

Maria Jordan

v.

CNA/DI

(Petitioner)

(Respondent)

I DO NOT INTEND TO FILE A RESPONSE to the petition for a writ of certiorari unless one is requested
by the Court.
Please check the appropriate boxes:
Please enter my appearance as Counsel of Record for all respondents.
D There are multiple respondents, and I do not represent all respondents. Please enter my
appearance as Counsel of Record for the following respondent(s):

Representing Continental Casualty Company and DynCorp
International, LLC with respect to the disability claim.
I am a member of the Bar of the Supreme Court of the United States.

F I am not presently a member of the Bar of this Court. Should a response be requested, the response
will be filed by a B member.
Signatu

1, 2019

Date•

(Type or print) Name

Lauren E. Wilson
Mr.

Firm

❑ Miss

Brown Sims

Address

1177 West Loop South, Tenth Floor

City & State
Phone

❑ Ms. D Mrs.

Houston, TX

713-629-1580

Zip
Email

77027

Iwilson@brownsims.com

A COPY OF THIS FORM MUST BE SENT TO PETITIONER'S COUNSEL OR TO PETITIONER
IF PRO SE. PLEASE INDICATE BELOW THE NAME(S) OF THE RECIPIENT(S) OF A COPY
OF THIS FORM. NO ADDITIONAL CERTIFICATE OF SERVICE IS REQUIRED.

CC: Jack Jordan, Jason Branciforte, Ethan Balsam, Noel J. Francisco

1177 West Loop South
Tenth Floor
Houston, Texas 77027
0 713.629.1580
F 713.629.5027

Brown
Sims

Lauren E. Wilson
Shareholder
lwilson@brownsims.com
D 713.351.6292

August 1, 2019
Supreme Court of the United States
1 First Street, NE
Washington, DC 20543
Re:

Supreme Court No. :
Claimant
Employer
Carrier
Carrier No.
D/Injury

Our File No.:

002404.157022

Via CMRRR: 9171 9690 0935 0196 6002 03

19-86
Maria Jordan
DynCorp International, LLC
Continental Insurance Company
HWAo5o57
09/18/2012

Dear Clerk of the Court:
Enclosed for filing, please find Counsel Lauren Wilson's Waiver on behalf of
Respondents Continental Casualty Company and DynCorp International, LLC with
respect to the disability claim.
Should you have any questions, please do not hesitate to contact our office. Thank you
for your consideration in this matter.
Sincerely,
Br )wn Sims

RECEIVED
auren E. Wilson
Shareholder
Enclosures

'cc:

AUG 16 2019
OFFICEOF THE CLERK
IVIE COURT U.S.
SUPRE

Mr. Jack Jordan
6225 Northlake Drive
Parkville, Missouri 64152

Via CMRRR:
9171 9690 0935 0196 6002 10

Mr. Ethan Balsam
Littler Mendelson, PC
815 Connecticut Ave., N.W., Ste. 400
Washington, D.C. 20006

Via facsimile: (202) 842-0011
and via regular mail

Houston I Lafayette I New Orleans I Gulfport I Miami

browrtsirns.corn

